audit report



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing Revenues by the Orange County, California Regional Narcotics Suppression Program
GR-90-00-007
November 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The United States Department of Justice (DOJ), Office of the Inspector General has completed an audit of the use of equitable sharing revenues by the Orange County, California, Regional Narcotics Suppression Program (RNSP).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.

We determined that the RNSP generally complied with Department of Justice guidelines.  However, we found that:

All expenses related to asset forfeiture funds are accumulated in one fund.  Consequently, the individual expenses are not specifically identified to DOJ asset forfeiture receipts as required in the March 1994 Guide to Equitable Sharing of Federally Forfeited Property for State and Local Law Enforcement Agencies, page 29.

	The RNSP did not track expenditures of the DOJ asset forfeiture funds passed through to other law enforcement entities as required.  As a result, we were unable to determine if the funds were properly used, and we question $317,611 as unsupported.

	The use of DOJ asset forfeiture funds for the purchase of a Cessna 182 surveillance aircraft was not disclosed to the Criminal Division.  The narrative descriptions of many of the flights in the flight log books were inadequate.

	On its FY 1998 Federal Annual Certification Report, the RNSP understated equitable sharing receipts by $28,511.

	The RNSP did not have complete documentation for the transfer of five vehicles as part of its equitable share.

The audit results are discussed in the Findings and Recommendations section of this report.  Our audit Scope and Methodology appear in Appendix I.